TN

Q@QCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 L e g a l B rt efs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No.

CITY OF EAST CLEVELAND and
TODD CARROSCIA,
Petitioners,

Vv.

CHARLES HUNT and MARILYN CONARD,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 1284 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 8th day of October, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ’
State of Nebraska . ‘
My Commission Expires Nov 24, 2020 A

Notary Public Affiant 38616

 

 
